<html>
<title> - NOMINATIONS OF MARK J. MAZUR, MATTHEW S. RUTHERFORD, AND MEREDITH M. BROADBENT</title>
<body><pre>[Senate Hearing 112-767]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-767

 
 NOMINATIONS OF MARK J. MAZUR, MATTHEW S. RUTHERFORD, AND MEREDITH M. 
                               BROADBENT

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

       MARK J. MAZUR, TO BE ASSISTANT SECRETARY FOR TAX POLICY, 
  DEPARTMENT OF THE TREASURY; MATTHEW S. RUTHERFORD, TO BE ASSISTANT 
   SECRETARY FOR FINANCIAL MARKETS, DEPARTMENT OF THE TREASURY; AND 
      MEREDITH M. BROADBENT, TO BE A MEMBER OF THE UNITED STATES 
                     INTERNATIONAL TRADE COMMISSION

                               __________

                              MAY 8, 2012

                               __________

                                     
                                     

            Printed for the use of the Committee on Finance




                  U.S. GOVERNMENT PRINTING OFFICE
80-697                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  


                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
KENT CONRAD, North Dakota            OLYMPIA J. SNOWE, Maine
JEFF BINGAMAN, New Mexico            JON KYL, Arizona
JOHN F. KERRY, Massachusetts         MIKE CRAPO, Idaho
RON WYDEN, Oregon                    PAT ROBERTS, Kansas
CHARLES E. SCHUMER, New York         MICHAEL B. ENZI, Wyoming
DEBBIE STABENOW, Michigan            JOHN CORNYN, Texas
MARIA CANTWELL, Washington           TOM COBURN, Oklahoma
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware
BENJAMIN L. CARDIN, Maryland

                    Russell Sullivan, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)
?



                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     2

                               WITNESSES

Archer, Hon. Bill, former U.S. Representative from Texas.........     5
Portman, Hon. Rob, a U.S. Senator from Ohio......................    20

                        ADMINISTRATION NOMINEES

Mazur, Mark J., nominated to be Assistant Secretary for Tax 
  Policy, Department of the Treasury, Washington, DC.............     6
Rutherford, Matthew S., nominated to be Assistant Secretary for 
  Financial Markets, Department of the Treasury, Washington, DC..     8
Broadbent, Meredith M., nominated to be a member of the United 
  States International Trade Commission, Washington, DC..........     9

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Archer, Hon. Bill:
    Testimony....................................................     5
Baucus, Hon. Max:
    Opening statement............................................     1
Broadbent, Meredith M.:
    Testimony....................................................     9
    Prepared statement...........................................    27
    Biographical information.....................................    29
    Responses to questions from committee members................    38
Grassley, Hon. Chuck:
    Letter from Senator Grassley to Secretary Geithner, dated 
      June 21, 2010..............................................    40
    Letter from Senator Grassley to Commissioner Shulman, dated 
      September 13, 2011.........................................    45
    Letter from Senator Grassley to Secretary Geithner and 
      Commissioner Shulman, dated April 30, 2012.................    53
Hatch, Hon. Orrin G.:
    Opening statement............................................     2
    Prepared statement...........................................    57
Mazur, Mark J.:
    Testimony....................................................     6
    Prepared statement...........................................    59
    Biographical information.....................................    62
    Responses to questions from committee members................    72
Portman, Hon. Rob:
    Testimony....................................................    20
Rutherford, Matthew S.:
    Testimony....................................................     8
    Prepared statement...........................................   121
    Biographical information.....................................   123
    Responses to questions from committee members................   130

                                 (iii)


                  NOMINATIONS OF MARK J. MAZUR, TO BE
                  ASSISTANT SECRETARY FOR TAX POLICY,
                      DEPARTMENT OF THE TREASURY;
                  MATTHEW S. RUTHERFORD, TO BE ASSIST-
                  ANT SECRETARY FOR FINANCIAL MARKETS,
                    DEPARTMENT OF THE TREASURY; AND
                     MEREDITH M. BROADBENT, TO BE A
                      MEMBER OF THE UNITED STATES
                     INTERNATIONAL TRADE COMMISSION

                              ----------                              


                          TUESDAY, MAY 8, 2012

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:07 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senators Wyden, Hatch, Grassley, Crapo, and Thune.
    Also present: Democratic Staff: Russ Sullivan, Staff 
Director; Gabriel Adler, Senior International Trade and 
Economic Advisor; Tiffany Smith, Tax Counsel; Lily Batchelder, 
Chief Tax Counsel; and Rory Murphy, International Trade 
Analyst. Republican Staff: Chris Campbell, Staff Director; 
Everett Eissenstat, Chief International Trade Counsel; and Nick 
Wyatt, Tax and Nomination Professional Staff Member.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    Tom Brokaw once said, ``It's easy to make a buck. It's a 
lot tougher to make a difference.'' Today the Finance Committee 
considers three nominees for roles where it is possible to make 
a difference. I welcome them and their families to the 
committee.
    Two of these nominees are up for important positions in the 
Treasury Department. The third is nominated for a central role 
at the International Trade Commission.
    Mr. Mazur, the President has nominated you to be Assistant 
Secretary of the Treasury for Tax Policy. In this role, you 
would lead Treasury's team to develop and implement tax policy. 
You would help negotiate tax treaties, and you would provide 
analysis to help shape domestic and international tax policy.
    We are working to reform our tax code for the first time in 
more than a quarter century. It will be difficult, and we will 
have to make tough choices. But a more simple tax code that 
spurs growth is crucial for our country to remain competitive. 
The analysis that comes from the Treasury Department will be 
crucial to make sure tax reform is done right.
    Mr. Rutherford, the President has nominated you to be 
Assistant Secretary of the Treasury for Financial Markets. In 
this position, you will advise the Treasury Secretary on 
domestic finance, financial markets, and the Federal debt.
    Everyone agrees we need to reduce our deficits and our 
debt. We need to do it in a way that maintains stability in the 
markets, and it must put our economy on stable footing for the 
future. This is the biggest long-term challenge government 
faces.
    Ms. Broadbent, the President has nominated you to be a 
Commissioner on the United States International Trade 
Commission, otherwise known as the ITC. As Commissioner, you 
would enforce U.S. anti-dumping and countervailing duty laws. 
These laws are essential for American manufacturers and 
American workers to compete for business here at home. Our 
companies can compete with anyone as long as they have a level 
playing field, and these laws help ensure that they do.
    You would also help enforce U.S. intellectual property 
rights. An ITC report I requested found that China's 
intellectual property violations cost the United States economy 
nearly $50 billion each year. These violations have also cost 
us millions of jobs. Vigorous enforcement of intellectual 
property rights helps innovative companies create 21st-century 
jobs here at home. Without that enforcement, it is hard for our 
companies to compete, and we depend on the ITC to enforce those 
rights.
    As Tom Brokaw said, it is tough to make a difference. The 
positions you have all been nominated for involve some of the 
most important economic issues facing our country. We need 
people to fill them who are ready to make a difference.
    So I congratulate you, each of you, on your nominations and 
thank you for being here today.
    Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. I want to thank our 
witnesses for their willingness to step into the arena, and I 
want to thank your families for their support as well.
    First, I have a few matters to address to Mr. Mazur and Mr. 
Rutherford.
    On February 14 of this year, Secretary Geithner appeared 
before this committee to discuss President Obama's fiscal year 
2013 budget. I, along with other members of this committee, 
submitted written questions for the record. Responses to those 
questions were due on April 30, and I specifically requested 
that those responses be provided by that deadline so that I 
would have adequate time to review them in preparation for this 
hearing today.
    Now, those responses were not provided to me until 
yesterday. I have agreed with the chairman to hold this 
hearing, but I must say that the Treasury Department's pattern 
of either refusing to respond to Senators' questions or only 
strategically responding the night before it wants something 
from this committee is getting a little bit old.
    Treasury, unfortunately, seems to think that the Senate's 
questions come with an option to blow past deadlines and 
respond, if at all, whenever it chooses. Now, this failure to 
respond to the Senate is neither fruitful nor acceptable.
    Mr. Mazur, I have seen from your questionnaire that you 
have worked on tax and economic policy for many years at the 
IRS, the Joint Committee on Taxation, and the Council of 
Economic Advisors, among other places. If we are actually going 
to be able to tackle tax reform, and I mean real tax reform, we 
will need all of the expertise and seriousness of purpose that 
we can get.
    Unfortunately, unlike in 1986, the administration does not 
seem interested in leading the way and helping to forge a 
serious proposal for fundamental tax reform, and that is being, 
in my opinion, charitable. In fact, the President seems content 
to ignore our bloated tax code, which burdens the entire 
economy, and the looming tax hikes that are creating economic 
uncertainty and undoubtedly holding back the recovery and job 
creation. Instead, the Senate is spinning its wheels on 
showboats designed to generate campaign talking points rather 
than meaningful tax reform.
    Mr. Mazur, it would be good to hear from you an actual 
comprehensive vision for tax reform.
    Mr. Rutherford, your position would entail advising senior 
Treasury leadership on many matters, including the financing of 
the Federal debt. Though fiscal policy is generally decided by 
Congress, in your position you could be especially effective in 
providing transparency about the government's ability to meet 
its obligations. Treasury's failure to provide adequate 
information to the Senate about our Nation's fiscal situation 
during last year's debt limit impasse was a serious 
shortcoming, in my opinion.
    Now, Congress will be in a better position to make sound 
fiscal policy if we have sound information from the Treasury 
Department on our fiscal position. I hope that you share my 
expectation that when members of Congress ask basic questions 
of Treasury, like how much cash is in the Federal till, the 
results should not be stonewalling by Treasury.
    Now, I want to welcome Meredith Broadbent, who is nominated 
to be a member of the United States International Trade 
Commission. Ms. Broadbent's distinguished career includes work 
as a key policy advisor and counsel to the House Ways and Means 
Committee. She also worked within the executive branch, 
coordinating the work of the Office of Industry, Market Access, 
and Telecommunications at the Office of the U.S. Trade 
Representative.
    Most recently, she served as senior advisor and chair of 
international business at the Center for Strategic and 
International Studies. And, while any of these accomplishments 
standing alone is enough to be considered successful, Ms. 
Broadbent served admirably in each role. She should be justly 
proud of her work, and I am certainly proud of you.
    Finally, I want to take a minute to recognize Floyd 
Williams, whom I understand is in attendance today and will 
soon be retiring from Federal service. Floyd has served as 
National Director for Legislative Affairs at the Internal 
Revenue Service since 1996 and can share with today's Treasury 
nominees what it is like to be on the receiving end of urgent 
requests for information from this committee.
    Originally from Fayetteville, AR, Floyd worked at the Tax 
Foundation before working for the Treasury Department in the 
Office of Legislative Affairs before finally moving on to the 
IRS.
    Floyd, if you ever miss your old job and want a letter from 
the committee requesting information, let me know. [Laughter.] 
I would be glad to oblige. I greatly appreciate your service, 
and I wish you well.
    Mr. Chairman, thank you again, and thank you to the 
witnesses who are appearing today. We appreciate your 
willingness to serve our government, and we have every 
confidence that you will be able to serve well.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. Thank you, Senator.
    A couple of points before I begin. Number one, any request 
of yours to Treasury, any request you make as ranking member, 
is also a request of mine.
    Senator Hatch. I appreciate it.
    The Chairman. So I would like the Treasury to know that, if 
Senator Hatch makes a legitimate request, I fully support it 
and would like it to be answered timely. I think that is only 
appropriate that it be answered timely.
    Senator Hatch. Well, thank you, Mr. Chairman.
    The Chairman. Second, you are certainly right about Floyd. 
He has been such a tremendous person. We value him very much, 
and we regret that Floyd is retiring as Director of Legislative 
Affairs with the Internal Revenue Service.
    You have just been terrific, Floyd, and you have just been 
serving in the true spirit of public service, and it means a 
lot to us and it means a lot to Americans, as I am sure it does 
to the IRS.
    Thank you. You will be missed.
    Senator Grassley. Mr. Chairman, could I say something about 
Mr. Williams?
    The Chairman. Absolutely.
    Senator Grassley. Because during a good part of his time in 
that position with IRS, you and I traded back and forth being 
chairman, and I wanted to thank him for his cooperation with me 
while I was chairman and ranking member.
    Particularly, he is a good example of people who start at 
lower levels and work their way up to a very important 
position, because he has been a Senate page and in other jobs 
for the Senate before he went to the IRS.
    The Chairman. You bet. You have a lot of fans here.
    Now, I would like to introduce the panel. Our first witness 
is Mark Mazur, who has been nominated to be the Assistant 
Secretary of Treasury for Tax Policy.
    The second witness is Matt Rutherford, nominated to be 
Assistant Secretary of the Treasury for Financial Markets.
    And our third witness, who has been nominated for the 
International Trade Commission, will be introduced by her 
former colleague, Congressman Bill Archer.
    Why don't you come on up, Bill, and why don't you make your 
introduction right now?

                STATEMENT OF HON. BILL ARCHER, 
             FORMER U.S. REPRESENTATIVE FROM TEXAS

    Representative Archer. Thank you, Mr. Chairman. Thank you 
for giving me the honor to introduce Meredith Broadbent. I know 
that this is normally reserved for a member of the Senate, and 
so I am honored to be given this opportunity.
    And, as a former chairman of the Ways and Means Committee 
in the other body, I have a lot of fond memories of working 
with each and every one of you Senators who is in attendance 
today, although I must say that I am not eager to get back up 
here.
    But I am pleased to be able to introduce Meredith 
Broadbent, who has been nominated, as you said, by the 
President to be a member of the International Trade Commission. 
I cannot think of anybody who is more qualified to hold this 
position, more knowledgeable about the law, and more respectful 
of the prerogatives of the Congress.
    Meredith worked for the Ways and Means Committee trade 
staff for 20 years--I find it hard to believe that it really 
was that many years, Meredith--until the year 2002, and I 
worked very closely with her on all the major trade agreements 
that came up during that time.
    She earned a reputation for integrity, wisdom, 
professionalism, and bipartisan cooperation. And she learned 
firsthand the importance of the legislative process, 
congressional intent, and the legislative history of trade 
statutes.
    She originally had responsibility for organizing the 
committee's consideration of miscellaneous tariff bills, and I 
remember well the work she did for me on a bill I sponsored to 
establish the Trade Remedy Assistance Office of the ITC, which 
offers assistance to workers, farmers, and small businesses to 
navigate the complexities of petitioning for relief under the 
trade remedy statutes administered by the ITC.
    I could go into a lot of details of the work that she did, 
and I am going to spare you that, but I do want to tell you 
that she drafted the Ways and Means Committee bill and the 
report which normalized trade relations with China, and that 
was a big, big thing.
    She did an excellent job, and, of course, the proof of that 
is that the Senate adopted our bill without amendment and 
without any single change, and that is very unusual.
    In 2002, Ambassador Zoellick asked her to join his team as 
Assistant USTR for Industry, and she did outstanding work 
there, and she led the U.S. negotiating team on industrial 
tariffs for the Doha round. And I am sorry to say, Meredith, 
you did not succeed in bringing that negotiation to an ultimate 
conclusion, but maybe one day it will happen.
    She is someone who has earned my trust and the trust 
associated with the position to which she has been nominated. 
The judgments she will be called on to make will be technical 
and fact-
intensive, and I know she will apply hard work, sensitivity to 
the industry under consideration, and the experience she has 
gained here on Capitol Hill to compose thoughtful and well-
reasoned determinations.
    She, I know, will implement the law as it is written, and 
she will be responsive to your needs for data and analysis, and 
imaginative in her approach in assisting Congress at the ITC.
    Meredith has my highest endorsement, and I urge approval of 
her nomination.
    The Chairman. Thank you, Congressman Archer, very much. I 
deeply appreciate that endorsement. Clearly, you have good 
experience. She has worked so well and so long, Meredith has, 
in this.
    Thank you very much for that statement.
    Before we proceed, I would like to--Mr. Mazur, why don't 
you go ahead? You know our customary practice here is that each 
person summarizes his statement, and the full statement will be 
automatically included in the record.
    So just tell us what you want us to hear. Thanks. Go ahead.

STATEMENT OF MARK J. MAZUR, NOMINATED TO BE ASSISTANT SECRETARY 
   FOR TAX POLICY, DEPARTMENT OF THE TREASURY, WASHINGTON, DC

    Mr. Mazur. Thank you, Chairman Baucus, Ranking Member 
Hatch, and members of the Senate Finance Committee.
    I am honored to have been nominated by President Obama to 
serve as the Treasury Department's Assistant Secretary for Tax 
Policy, and I am grateful for the confidence that Secretary 
Geithner has shown in my abilities in recommending me to the 
President. I also want to thank Senators and their staffs for 
the opportunity to meet with them over the past few weeks to 
discuss a wide range of tax issues.
    The possibility that I could serve the Nation in the 
capacity of Assistant Secretary for Tax Policy is the result of 
a long journey that has provided me with numerous learning 
opportunities, plus a wide variety of disciplines.
    My parents instilled in me the notion that giving back to 
society is important. For instance, my father served as 
commissioner for our local Babe Ruth League, and my mother was 
active in the PTA and very supportive of education in general. 
And I would not be here today without a strong public education 
system, of which I was a beneficiary from elementary school all 
the way through.
    The opportunity to repay this support through public 
service has been a major motivation for my choice of career. I 
have been interested in working with the tax system for many 
years. When I was a kid, I used to sit with my dad at the 
kitchen table helping him organize his tax records, making sure 
that he would check his arithmetic on his tax return, because, 
frankly, he did not want to make a mistake filing his tax 
return. That is one of the more important things that they did, 
and it is one of the opportunities that every American has to 
interact with their government every year.
    I believe my background has prepared me well for this 
opportunity. I received a degree in financial administration 
from Michigan State University, then worked as a tax accountant 
for General Motors. At Stanford University I pursued a Ph.D. in 
business, where I was introduced to the serious study of 
economics.
    I spent 4 years as an assistant professor at Carnegie 
Mellon University, where I specialized in public finance 
issues, and obtained an appreciation for interdisciplinary 
analysis of important policy questions.
    I next worked for the Joint Committee on Taxation, where I 
got an education in the legislative process and also was part 
of a tremendously talented team that produced high quality work 
under tight deadlines.
    I then spent 2 years as a senior economist specializing in 
public finance at the President's Council of Economic Advisors, 
followed that with a similar period of service at the 
President's National Economic Council, and then 4 years at the 
Department of Energy.
    My next position was with the Internal Revenue Service, 
where I was director for research, analysis, and statistics, 
which gave me an appreciation for the administrative issues 
that are faced by the Internal Revenue Service in administering 
the tax code.
    In all these positions, I learned important lessons on how 
to approach complex problems, how to work as part of a team, 
and how and when to rely on staff experts, and these are 
lessons that I will apply to my work as Assistant Secretary for 
Tax Policy, should I have the privilege of being approved by 
this committee and confirmed by the Senate.
    This, indeed, is an auspicious time to be working in tax 
policy. We are facing momentous decisions in the design of tax 
policy in our medium- and long-term fiscal policy. Our Nation 
needs a tax system that is simple, fair, and raises adequate 
revenue for funding important activities of government. Right 
now our tax system falls short in all three dimensions.
    The tax system is extraordinarily complex. Virtually 
everyone agrees it needs to be simpler. Having a complex system 
breeds a perception that there are two sets of rules, one for 
the well-advised and one for everyone else, and that perception 
of unfairness can erode the foundation of voluntary compliance 
on which our system depends.
    Our system needs to raise adequate revenue to fund the 
important goods and services provided by the Federal 
Government. At this point, chronic Federal budget deficits 
characterize our fiscal policy. That needs to change in the 
medium and long term.
    Finally, the tax system needs to have a higher degree of 
permanence so taxpayers can make informed judgments about long-
term investments in human, physical, and financial capital. The 
effect of tax incentives is blunted when taxpayers are unsure 
what the rules of the tax system will be when they make these 
investments and when they file their tax returns.
    These are a few of the items that, if confirmed, I look 
forward to working with you to address. Having served in 
administrations led by both political parties, I think I have 
demonstrated a nonpartisan approach to public policymaking 
throughout my public service career. And, really, having a good 
tax system is something that affects every American household, 
and that should reflect the goodwill we all share as Americans.
    In closing, I would like to take the opportunity to 
acknowledge the true professionals who staff the Office of Tax 
Policy at Treasury. These lawyers, economists, accountants, and 
other professionals are an incredibly talented team of 
dedicated public servants. As a taxpayer, I know I am well-
served by this group, and I am honored by the ability to call 
them colleagues.
    Finally, let me close by noting I am humbled by the 
possibility of serving the Nation in this new capacity. If you 
and your colleagues in the Senate give me the opportunity to 
serve as Assistant Secretary for Tax Policy, I promise to do 
all I can to justify your confidence in my abilities.
    Thank you for the opportunity to appear here today. I would 
be pleased to answer any questions you may have.
    [The prepared statement of Mr. Mazur appears in the 
appendix.]
    The Chairman. Thank you, Mr. Mazur.
    Next, Mr. Rutherford?
    Before we begin, though, Mr. Rutherford, I will give you an 
opportunity to introduce your family.
    By the way, stand up so we can all see and recognize you.

 STATEMENT OF MATTHEW S. RUTHERFORD, NOMINATED TO BE ASSISTANT 
 SECRETARY FOR FINANCIAL MARKETS, DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Mr. Rutherford. This is my daughter, Nora, who is 18 months 
old; my wife, Bridget, who is about 34 weeks pregnant; my 
mother, Cathy; and my father, Tom.
    The Chairman. That is wonderful. Let us give them all a 
round of applause. Thank you for your service. [Applause.]
    Why don't you begin?
    Mr. Rutherford. Thank you, Chairman Baucus, Ranking Member 
Hatch, and members of the committee, for allowing me to testify 
before you today.
    I am humbled to sit before you, and I am also honored to 
share this panel with Mark Mazur and Meredith Broadbent. Having 
worked with Secretary Geithner both at the Treasury Department 
and the Federal Reserve Bank of New York, I want to thank him 
for recommending me for the position of Assistant Secretary of 
the Treasury for Financial Markets. His service throughout the 
financial crisis has been remarkable, and I believe the United 
States has benefitted from his leadership and service during 
this difficult economic period.
    I would also like to thank President Obama for nominating 
me for this position. It is an incredible honor. And I am 
deeply appreciative to staff at Treasury and the Senate Finance 
Committee who have worked with me throughout this entire 
process.
    Again, I would like to thank my wife, Bridget, my daughter, 
Nora, and my parents for being with me today. I am very 
fortunate to have a very caring and wonderful family. 
Unfortunately, my sister cannot be here today, but she has 
served as a constant source of support throughout my entire 
life.
    For the past 3 years, I have served as the Deputy Assistant 
Secretary of the Treasury for Federal Finance. In this 
capacity, my primary responsibility has been to manage the 
Office of Debt Management, which is responsible for making 
policy decisions on how Treasury finances the government's 
borrowing needs. This has been a very busy time period in 
government finance, but I think we have achieved our objective, 
which is to finance the government's budget at the lowest cost 
over time to taxpayers.
    Prior to my time at Treasury, I spent 4 years at the 
Federal Reserve Bank of New York in the markets group. My time 
there was very instructive, because, in many ways, the New York 
Fed is the government's closest point of contact to the 
financial markets. I focused on a number of different areas in 
the fixed income space and learned a great deal about financial 
markets generally.
    Between my time at Treasury and the New York Fed, I feel 
that I am uniquely positioned to take on this new role. So, if 
confirmed, I would be honored to continue my career in public 
service, particularly during this important moment in our 
Nation's history.
    Far too many Americans are out of work and struggling to 
pay their bills, and it is critically important that we work 
together, given the challenges that we face.
    I will conclude by saying that, if I am confirmed, I look 
forward to working with members of the Senate Finance Committee 
to address these important challenges.
    Thank you again for your time, and I would be happy to 
answer any questions that you have.
    [The prepared statement of Mr. Rutherford appears in the 
appendix.]
    The Chairman. Ms. Broadbent?

STATEMENT OF MEREDITH M. BROADBENT, NOMINATED TO BE A MEMBER OF 
 THE UNITED STATES INTERNATIONAL TRADE COMMISSION, WASHINGTON, 
                               DC

    Ms. Broadbent. Chairman Baucus, Ranking Member Hatch, and 
members of the Committee on Finance, thank you for the 
opportunity to appear before you today.
    I am grateful to the President for nominating me, and to 
Minority Leader McConnell and Senator Portman for supporting my 
nomination.
    If confirmed, I believe my broad experience in 
international trade, including my service as a staff member in 
Congress and as a trade negotiator at USTR, has prepared me to 
assume a leadership position at the U.S. International Trade 
Commission. To me, this is an exciting time to be considered 
for an assignment at the ITC.
    Congress has just cleared the decks of the pending free 
trade agreements, and a new template for the next generation of 
agreements is being developed. As you work through novel issues 
and hone new negotiating objectives, the ITC can provide data 
and analytical support to inform your policy deliberations. 
Congress and the administration are working hard to enhance the 
rules-based trading system and its ability to address unfair 
import competition and increasingly complex trade and non-
tariff barriers.
    A record of fair and objective import injury investigations 
and import-based intellectual property determinations will be 
an element in helping you and your colleagues build bipartisan 
support for a new trade agenda among U.S. workers, farmers, and 
businesses.
    Serving as a professional staff member for the Committee on 
Ways and Means during the development of the Omnibus Trade and 
Competitiveness Act and the implementing bills for the Uruguay 
Round trade agreements has given me a deep appreciation for the 
role that Congress intends the Commission to play in unfair 
trade remedy investigations and reviews. I understand the 
importance of objectivity in rendering injury determinations 
and the legislative intent behind the countervailing duty and 
anti-dumping laws.
    My experience in administering the U.S. trade laws and as a 
key requestor and recipient of the ITC's analytical work while 
serving as a trade negotiator at USTR make me well-qualified to 
help direct the Commission in the production of relevant 
studies that will be useful to Congress and the Executive 
Branch.
    I have seen how support for the rules-based trading system 
is built one industry, one worker, one farmer, one rancher at a 
time. Every constituent who interfaces with the ITC must 
receive fair and objective treatment under the trade laws.
    It is on that basis, if confirmed, I would be honored to 
serve as a member of the U.S. International Trade Commission. 
Thank you for the privilege of being considered for this 
position.
    I want to express appreciation to my husband, Chuck Riedel, 
and our two sons, Jess and William, for their support in my 
interest in serving at the ITC.
    With that, I am pleased to respond to any questions.
    [The prepared statement of Ms. Broadbent appears in the 
appendix.]
    The Chairman. Thank you, Ms. Broadbent.
    I now have three questions, and I will ask each of the 
three of you, and I will just go down the line here.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Mazur?
    Mr. Mazur. No.
    The Chairman. Mr. Rutherford?
    Mr. Rutherford. No.
    The Chairman. Ms. Broadbent?
    Ms. Broadbent. No.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Mazur. No.
    Mr. Rutherford. No.
    Ms. Broadbent. No.
    The Chairman. Thank you.
    Do you agree, without reservation, to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of the Congress, if you are confirmed?
    Mr. Mazur. Yes.
    Mr. Rutherford. Yes.
    Ms. Broadbent. Yes.
    The Chairman. Thank you.
    I will start with you, Mr. Mazur. We have a heck of a chore 
ahead of us this year and the next in reforming the tax code, 
both corporate and individual. I am going to ask you the open-
ended question of how you think we should proceed; that is, not 
so much process, but substantively?
    You have lots of expertise. You have been around a lot. You 
have analyzed these issues backwards and forwards. How do we do 
it? What direction do you think this country should proceed, 
recognizing that the world has changed so much since we 
reformed the code in 1986?
    Mr. Mazur. Thank you, Mr. Chairman.
    First, let me say I appreciate your leadership on holding 
hearings on tax reform and kind of moving the ball along here 
in the Senate. I think that is an important set of foundation 
work that needs to happen in order to build public support and 
momentum for tax reform.
    You pointed to the 1986 Tax Act as an example of past tax 
reforms, and, there, we spent several years both at Treasury 
and in the Congress developing proposals, testing them out, 
building momentum, finding areas for compromise where we 
could--a broadened tax base and lowered tax rates. And really 
that is what we are trying to do with tax reform here.
    If we look at the tax code today, we see it is incredibly 
complex.
    The Chairman. But back then, there was Treasury I and there 
was Treasury II. Do you think that something like that is 
necessary this time around?
    Mr. Mazur. I do not think it is necessary, but I think the 
President's framework for business tax reform is a step in that 
direction, and it lays out some of the important issues that 
need to be addressed, points in the direction of broadening the 
tax base, giving a serious look at the various tax 
expenditures, various parts of the code which provide special 
preferences, and then using whatever revenue is raised to lower 
rates.
    And really that should lead to a tax code that is simpler, 
easier to navigate for taxpayers--one that rewards economic 
decisions and not necessarily tax planning decisions--and that 
would support economic growth in the long term.
    The Chairman. How much work has the Treasury done thus far? 
The Treasury published its corporate framework, which was just 
that, only a framework. Everyone agrees the Is were not dotted 
and the Ts not crossed, and I expect that nothing is going to 
be forthcoming from the administration at least until after the 
election; that is, the Is not dotted and the Ts crossed.
    In the same vein, there is no proposed individual tax 
reform proposal, I suspect for the same reasons. Nevertheless, 
to what degree is Treasury working on developing a 
comprehensive tax reform proposal idea, a proposal construct, 
for both corporate and individual?
    Mr. Mazur. There are several steps in that direction, 
Senator Baucus. One, as you noted, the President's framework 
for business tax reform does lay out some steps in the 
direction of a reformed tax system and really provides an 
opportunity for dialogue with policymakers and stakeholders to 
fill in the blanks.
    The Chairman. Right. But is Treasury developing its own 
proposal that, should the President get reelected, it is going 
to propose next year--I assume next year?
    Mr. Mazur. So, we would be negligent if we were not doing 
foundational work on a variety of modeling issues and 
analytical issues. But at this point, there is no plan that has 
been developed, and we will see how this plays out.
    I think right now we have an opportunity to take some steps 
forward on business tax reform, to look at the framework and 
find six or eight or ten areas of common ground, use that as a 
way to move forward and build some momentum toward 
comprehensive reform, which, frankly, as Secretary Geithner 
acknowledged when he was here, the goal is to look at the tax 
system as a whole and wind up with a reformed system that is 
simpler, that raises adequate revenue to fund the Federal 
Government, and that provides support for long-term economic 
growth in the United States.
    The Chairman. Will the President make a proposal subsequent 
to the election?
    Mr. Mazur. I really cannot promise that, sir.
    The Chairman. I do not have much time left. The tax gap--
what is the cause of this growing tax gap; that is, the gap 
between income owed, but not collected?
    Mr. Mazur. Well, Mr. Chairman, you and Mr. Grassley have 
certainly put the tax gap front and center over the last decade 
or so.
    At the IRS, one of the things that we learned from looking 
at the tax gap is, where there is information reporting, 
compliance is much better. And so, Congress has taken some 
steps to reduce the tax gap which have not yet shown up in the 
data by enacting debit and credit card reporting and reporting 
of basis on publicly traded securities.
    Those should help reduce the tax gap in coming years. It is 
not something that you can do just with enforcement. Really it 
needs probably comprehensive tax reform to simplify the system 
and provide fewer opportunities for tax avoidance.
    The Chairman. But is it primarily information reporting?
    Mr. Mazur. Information reporting is probably the one thing 
that could be done to have the biggest bang for the buck, yes.
    The Chairman. Thank you.
    Senator Hatch?
    Senator Hatch. Thank you.
    Mr. Mazur, President Obama frequently talks about closing 
loopholes to raise revenue. Now, I am concerned that it sounds 
like the administration's definition of a loophole may be 
different from how the term is generally understood.
    Now, I think of a tax loophole as the use of a tax 
provision in a way not intended by Congress when enacted. I 
would like to know how you define the term ``loophole.'' And do 
you have general criteria for determining what a loophole is or 
does your definition depend solely on who or what industry is 
utilizing a given tax provision?
    Mr. Mazur. Thank you, Senator Hatch, for that question.
    I think you raise important issues as to how we are going 
to look at the overall tax system, and that we have a number of 
special interest provisions in the tax code, preferences in 
lower rates, special deductions, and so on.
    Whether we call them tax expenditures, tax preferences, or 
loopholes does not really matter. Each of these should be held 
up and analyzed, the goal being to determine whether this 
special provision provides larger benefits to the economy as a 
whole, not just a tax benefit claimed by that individual or 
that taxpayer, but a much larger benefit. If it passes that 
test, it should be part of the tax code. If it does not pass 
that test, it would not be desirable tax policy.
    So it really does not come down to a definition of what a 
loophole is, really. It is a more broad or holistic view of it.
    Senator Hatch. Ms. Broadbent, as you are aware, 
intellectual property is an increasingly important part of our 
U.S. economy. In my State of Utah, IP is the lifeblood of many 
of our industries, from information technology to the life 
sciences.
    The ITC provides a vital tool for U.S. companies that face 
unfair competition from foreign imports that infringe their 
intellectual property interests.
    Now, can you share with us some of the relevant experience 
you will bring to the ITC that will assist you in dealing with 
cases involving IP? And let us have the benefit of your 
knowledge on that.
    Ms. Broadbent. I appreciate that, Senator Hatch.
    My experience in administering the trade statutes with 
respect to intellectual property focuses probably the most 
under the Generalized System of Preferences. I administered 
that at the U.S. Trade Representative's office, and we reviewed 
countries for consistency with the eligibility criteria and 
GSP, which related to intellectual property.
    It is a very important area, and it is something where the 
U.S. law has to be enforced very strictly, and I will pay very 
close attention to enforcing the intellectual property 
responsibilities of the International Trade Commission.
    Senator Hatch. Well, thank you. That is really important, 
as far as I am concerned.
    Now, Mr. Rutherford, as you may be aware, during the debt 
limit impasse last year, I requested specific information from 
Treasury concerning available cash, taxpayer cash, held at 
Treasury and its projections of cash inflows and outflows, 
along with plans in the event that the debt limit was breached.
    Now, the information was critical, as Congress was relying 
on guesses by local think tanks. And I asked how much cash 
Treasury had in its till and how much it expected to have over 
the short term, and I asked about Treasury's contingency plans 
as well.
    To date, I have received only limited responses, which I 
find unacceptable. Now, it baffles me that even the ranking 
member of the Senate Finance Committee cannot obtain timely 
information from the Treasury about how much taxpayer money is 
in the till of the Federal Government.
    Will you, Mr. Rutherford, agree to provide to us and to me, 
in particular, if I request it, information about how much 
money the Treasury has and how much it expects to have on a 
contemporaneous basis?
    That is, if I ask Treasury how much money is in the till 
and how much it expects to have over the next couple days or 
weeks, will you provide such information?
    Mr. Rutherford. Thank you, Senator Hatch. I think that I 
would personally commit to working with you and your staff. I 
think it is critically important that we have a good working 
relationship on this front.
    Now, I understand this has been an area of great interest 
to you, and I would point out that--a couple things. One is 
that we do publish on a daily basis the cash that we hold every 
single day in the daily Treasury statement. So that gets 
released to the public the following day.
    In terms of the projections, I know that in some of the 
questions that you have sent over to Secretary Geithner, we 
have responded on a couple of different dates.
    I think going forward, there is a balance that we need to 
strike between being responsive to you, as well as preserving 
some potentially market-sensitive information, because those 
forecasts determine some of our borrowing needs, which 
influence asset prices once we do make decisions on that front.
    But I can personally commit to you that I will be as 
responsible as possible.
    Senator Hatch. Thank you so much.
    Mr. Chairman, my time is up.
    The Chairman. Thank you, Senator.
    Senator Grassley?
    Senator Grassley. Mr. Mazur, I want to commend you for your 
23 years of government service, and I think you bring an 
important perspective to your job because of your work with the 
Joint Committee on Taxation and IRS research and statistics 
work that you have done.
    I do not have a beef with you, but I do have a beef with 
the Treasury Department. So do not take anything personally.
    And as a background to why I raise questions about whistle-
blowers, it is because you want to remember that I got the 
False Claims Act passed in 1986, and the Department of Justice 
says that has brought $30 billion back in to the Federal 
Treasury. So I have great respect for most whistle-blowers who 
come to me with information or come to you with information.
    And this is following up on something that Senator Baucus 
brought up, because he and I have worked together on the tax 
gap during the 10 years that he and I were chairman and ranking 
member of this committee, everything from shutting down 
corporate inversions and abusive deductions to improving the 
IRS whistle-blower program.
    It has been over 5 years since the IRS whistle-blower 
statute was updated. The updates were intended to incentivize 
whistle-blowers to come forward regarding large-dollar tax 
cheating. And by all accounts, as reported by the IRS and the 
Government Accountability Office, the updates are a success. 
Whistle-blowers have filed thousands of claims under this new 
statute.
    However, the IRS and Treasury response is very 
disappointing. I wrote to Secretary Geithner and Commissioner 
Shulman last week to express my disappointment. That happens to 
be the third letter on the topic.
    Mr. Chairman, if I could please have those letters inserted 
in the record, I would appreciate it.
    The Chairman. Without objection.
    [The letters appear in the appendix on p. 40.]
    Senator Grassley. These letters clearly state my concerns. 
More than 5 years after the statute was enacted, the necessary 
regulations are not finalized. The annual report has always 
been late. Communications with whistle-blowers are essentially 
nonexistent, and, as far as we know, only one award has been 
issued.
    But just think of this one award. We had a net recovery of 
$20 million to the Treasury just from one whistle-blower. My 
primary concern is that the foot-dragging by the Treasury and 
IRS will demoralize whistle-blowers so much that they will just 
stop blowing the whistle, and, of course, this means the tax 
gap gets bigger instead of smaller, and you probably are going 
to have more scams, like I think they found this one that I 
reported.
    It is important that the IRS and Treasury work together to 
collect every dollar that is currently owed before taxes are 
raised, and this President continues to push for more tax 
increases.
    So, after 5 years, whistle-blowers deserve to know at least 
the month and hopefully the year when they can expect guidance. 
If you are not able to say right now, I would give you the 
opportunity to give me an answer in writing.
    I would like to know when I can expect to see the whistle-
blower report for last fiscal year, which ended September 30, 
2011, and when I can expect complete responses to my letters.
    Mr. Mazur. Thank you, Senator Grassley. First, I have 
certainly admired your work on the tax gap over the years and 
think that you and the chairman have come up with a number of 
approaches to address this, which has been helpful--some 
legislative approaches, some other approaches.
    The whistle-blower program is a part of an overall approach 
that you have sketched out. I personally have not been involved 
in the regulatory guidance of the whistle-blower program, so I 
have to get back to you with an answer on that.
    But I can tell you that, if I am fortunate enough to be 
confirmed, I would be very happy to work with you and your 
staff to understand this program and to see that it becomes a 
successful program.
    Senator Grassley. I do not think you have to work with me. 
I think you have to work with the Commissioner of IRS and the 
Secretary of Treasury, just to meet and make these awards. It 
is that simple. Just meet and make the awards so we do not 
discourage further whistle-blowing.
    And why would we--when we have one example of $20 million 
coming in to the Federal Treasury, and, according to Senator 
Baucus, we have well over $300 billion that is in the tax gap, 
this is a perfect place to go.
    But you know what? I kind of suspect, and I suspect this 
from the reluctance from 1986 until about 1993 to get the 
Department of Justice to enforce the False Claims Act, that 
there were professionals within the departments who did not 
want the public to know they were not doing their job and were 
not following up on the fraudulent use of taxpayer money.
    And I wonder if we do not have the same problem in the IRS, 
that these people--if they admit that whistle-blowers are 
bringing them in $20 million--that somebody is not doing their 
job, and I think that that is a big problem.
    Now, my time is up. But if I could ask one more question.
    The Chairman. Go ahead.
    Senator Grassley. Also, to you, sir, I have conducted 
vigorous oversight of various executive branch agencies during 
my almost 40 years in the Congress. I view oversight as my 
constitutional duty. I consider myself an equal opportunity 
overseer, because I do not care whether we have Republican or 
Democratic Presidents.
    The primary way I conduct oversight activities is to write 
letters. Why? Because holding these hearings, you have to get a 
little bit of information out of the bureaucracy. It takes 
staff weeks to get ready for hearings.
    If you get a simple answer through a letter, that is what I 
try to do before you subpoena a bunch of stuff. So I ask 
detailed questions and request departments for certain 
documents. Responses to my letters and document requests are 
critical to conducting oversight.
    So I ask this question of every nominee of every committee 
I serve on.
    Do you agree to respond to my letters in full and in a 
timely manner? And when I say in full, in the first letter, not 
the second or third letter that you follow up to get the 
information you should have gotten in the first letter.
    Mr. Mazur. Mr. Grassley, if confirmed to this job, to the 
best of my ability, I will respond in a timely way.
    Senator Grassley. Well, as competent as you are, you have 
the ability to do it. Thank you.
    The Chairman. And I might say, Senator Grassley and I help, 
frankly, back each other up whenever each makes a request. Some 
years he has been chairman, some years I have been chairman. We 
just feel it is best the committee members work together and 
help each other out.
    So, again, as I mentioned earlier in the hearing, if 
Treasury receives a letter from the ranking member, that is, 
Senator Hatch--that includes Senator Grassley, who is honorary 
ranking member--that is a letter from me, as well, and I urge 
you to respond timely.
    Senator Grassley. He has always backed us up, too, and I 
thank you very much for doing that.
    The Chairman. You bet.
    Senator Grassley. Not just recently, ever since 2001, as 
far as I know.
    The Chairman. Thank you.
    Senator Wyden?
    Senator Wyden. Thank you very much, Mr. Chairman.
    I want to follow up on Chairman Baucus's question with you, 
Mr. Mazur.
    In the 2 years after the last major tax reform bill in 
1986, when a big group of progressive Democrats and Ronald 
Reagan got together, the country created 6.3 million new jobs--
a big boost to the economy. I do not think anybody can conclude 
that every one of those jobs was due to tax reform, but it 
certainly helped. And my view is, it would be a big shot in the 
arm again to pass tax reform.
    And I was out of the room, so I did not get the full flavor 
of your response to Chairman Baucus. But my question to you is, 
where is the sense of urgency in terms of moving to put 
together a bipartisan tax reform proposal? What I got out of 
the earlier response was, well, there is not much going on. 
There is not an effort to pull together a comprehensive plan.
    So let me ask, again, picking up on Chairman Baucus's 
question, where is this, and where is the sense of urgency to 
pursue it? This is something that has been done before. It has 
been done before, and it showed to have a very positive 
economic effect, and I think it will again.
    So where is this, and where is the sense of urgency?
    Mr. Mazur. Thank you, Senator Wyden, for the question on 
tax reform, and thanks for your work in highlighting the 
importance of tax reform.
    As you noted, in 1986, there was a major effort to reform 
the tax code. That effort spanned several years, basically 
starting in the early 1980s, culminating in the 1986 Tax Act.
    I think we are in the early stages of developing public 
support, stakeholder support, congressional support for tax 
reform, and, frankly, I think this attempt is going to be more 
difficult than in 1986.
    In 1986, we were able to, overall, do a revenue-neutral tax 
reform, and, frankly, with the medium- and long-term fiscal 
challenges we are facing, we are going to need to modestly 
increase revenues over the medium and long term, with modestly 
constrained spending. It will just be more difficult to do 
revenue-raising tax reform than revenue-neutral tax reform.
    Now, that said, the administration has taken a first step 
toward this by laying out the President's framework on business 
tax reform. It does provide a frame for looking at tax reform 
on the business side of the ledger.
    As Secretary Geithner has pointed out, the ultimate goal is 
to do comprehensive reform, but we thought that having a 
framework for business tax reform would at least allow there to 
be opportunities to find six or eight or ten areas of common 
ground where we could move forward and build some momentum for 
taking on the more difficult task of comprehensive reform.
    Senator Wyden. I would only say, respectfully, that to 
characterize this as being in the early stages--when you look 
at all that has been done, we have had one report after 
another, whether it is the Bowles-Simpson report, whether it is 
Dominici-Rivlin. Chairman Baucus has been having excellent 
hearings on this topic for quite some time. And the 
administration, even through Paul Volcker, had an excellent 
group.
    So to say that this is in the kind of early stages, I 
think, number one, is not substantively accurate. And I surely 
would like to see you particularly in this position. You are a 
good man. I plan to support you. I would like to see a sense of 
urgency, particularly because this is so directly related to 
job creation, as we saw the last time it was done.
    Now, one question on the corporate tax issue. The Joint 
Committee on Taxation last year released an analysis estimating 
that the lowest possible corporate income tax rate that could 
be enacted through legislation that is revenue-neutral under a 
territorial system is 28 percent.
    Now, I would like to see us, particularly by closing some 
of the loopholes in the system, get lower than that. And 
Senator Coats and I and others have had ideas on how to do it. 
Now, there are some in the House who have said that they were 
told by Joint Tax that it is possible to lower the top 
corporate rate to 25 percent, while also moving the United 
States to a territorial tax system.
    In your view, what would be required to lower the top 
corporate rate to 25 percent, transition to a territorial 
system, and still be revenue-neutral?
    Mr. Mazur. Thank you, Senator, for the opportunity to 
answer that question.
    In the President's framework on business tax reform, we 
were able to pull together a roughly revenue-neutral plan--
roughly 
revenue-neutral in the budget window and in the next decade--
that got the corporate rate down to 28 percent. And, frankly, 
the arithmetic on getting to 28 percent is very difficult.
    In my judgment, I think if you are looking at the corporate 
tax system by itself, you cannot get, in a revenue-neutral way, 
to 25 percent and have a territorial system. You may be able to 
find additional revenue outside the corporate tax system, maybe 
on the individual side, but in the corporate system, it would 
be very, very difficult to get there.
    Senator Wyden. My time is up, Mr. Chairman. If we have a 
second round, I might ask some more questions. Thank you.
    The Chairman. You bet.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman. And thank you all 
for coming today and responding to our questions, and for your 
willingness to serve.
    I would like to direct a question, if I might, to Mr. 
Mazur, and that has to do with what many are starting to call 
``taxmageddon,'' and that is the end of this year when the 2001 
and 2003 rates expire, which would trigger a huge tax increase 
on our economy.
    And, given the high stakes surrounding a bipartisan 
agreement on the issue of taxes, what advice might you give, if 
confirmed, to Secretary Geithner as to how to reach an 
agreement that will prevent this massive tax increase from 
taking effect, and which could very easily, I would argue, 
easily lapse us back into a recession.
    So what are your thoughts with regard to the big train 
wreck that is ahead of us at the end of the year when these tax 
rates expire, and how might you advise Secretary Geithner with 
regard to how to deal with this and come to an agreement?
    Mr. Mazur. Thank you, Senator Thune.
    If I was confirmed to this job, what I would advise the 
Secretary to do is to methodically look at the issues that are 
being raised item by item through the course of the year.
    Right now we have a number of tax provisions that expired 
at the end of 2011 that really should be addressed in the short 
term so taxpayers have some certainty as to what their tax 
situation is going to be for tax year 2012. That would be first 
on the list.
    Then we have the 2001 and 2003 tax cuts. The President has 
been pretty clear in his budget what he would like to see 
happen, which would be to allow the tax rates for those with 
incomes above $250,000 to revert back to where they were in the 
1990s, but to retain the 2001 and 2003 tax cuts for the bulk of 
the population, 98 percent of the population.
    There are also a couple of non-tax issues that need to be 
addressed, as well, at the end of the year. And so I guess my 
advice to Secretary Geithner on this would be to work with the 
Congress to tee up as many of these issues early on and build 
some--do some foundational work so that we are not pushed into 
a situation of having just a few weeks at the end of the year 
to make incredibly consequential decisions.
    Senator Thune. Do you think the agreement that was reached 
in 2010, the extension at that time, was a good thing? It was a 
2-year extension of the existing rates.
    Mr. Mazur. Given the state of the economy at that time, I 
think there was need for some additional fiscal stimulus, and 
the extension of the tax cuts, along with the payroll tax 
reduction that was in place, provided that and provided 
additional support for the economy through 2011 and 2012. Yes.
    Senator Thune. So that was a good policy move, in your 
view.
    Mr. Mazur. Given the state of the economy at the time, yes. 
I think as we move forward, we are pivoting to a situation 
where we need to address the medium- and long-term budget 
deficits, and the economy is not quite so fragile.
    Senator Thune. Thank you.
    Mr. Rutherford, the debt ceiling, the limit, is at $16.394 
trillion, which, at the time the Budget Control Act was passed, 
was expected to keep the government funded through November of 
this year. The President's 2013 budget points out the 
government will be just $60 billion below the debt limit 
ceiling at the end of fiscal year 2012, which would be 
September 30 of this year.
    Does the Treasury plan to institute extraordinary measures 
to avoid the debt limit being reached prior to the November 
elections; and, if so, what are those measures that you might 
intend to use?
    Mr. Rutherford. I appreciate the question, Senator. I think 
our best estimate now is that the tax ceiling will be reached 
sometime in the last couple months of the year after the 
election. And, at that point, we still have those same 
extraordinary measures that we used during previous impasses.
    So I think that that would be something that we would 
absolutely use to continue to allow us to borrow.
    Senator Thune. But you do not anticipate hitting that 
before the election or triggering----
    Mr. Rutherford. No.
    Senator Thune [continuing]. I should ask, triggering those 
extraordinary measures prior to the November election?
    Mr. Rutherford. No. Our best estimate is that this will 
happen after the election. I think that some of the forecasts 
are obviously volatile. It is difficult to forecast with much 
precision 6 months out about exactly the date on which we would 
actually hit it.
    But, obviously, we will be watching revenues and see how 
they are trending, as well as outlays. But we think it will be 
safely after the election.
    Senator Thune. And just a quick follow-up: if you have to 
use extraordinary measures, what might those be, what you would 
intend to use in order to----
    Mr. Rutherford. We typically redeem non-marketable Treasury 
securities, for example, in the G fund, which is something that 
Federal employees put money into. There are some authorities 
around the CSRDF, which is another retirement system. And we 
can also disinvest the exchange stabilization fund. And all 
three of those things we did in the last impasse last summer, 
as well.
    Senator Thune. I see my time is up. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator.
    I see Senator Portman has joined us. Senator, welcome. I 
believe you have a statement to make in support of one of the 
witnesses.

                STATEMENT OF HON. ROB PORTMAN, 
                    A U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman. I have always 
wanted to be in the Finance Committee, and I finally got here 
on this side of the table. [Laughter.]
    I was really enjoying hearing that dialogue, and I do not 
want to interrupt you for long, except to say that we do have a 
great candidate here. She is a native Ohioan, and I have had 
the opportunity to work with Meredith in various different 
posts.
    She has been nominated to serve as a Commissioner on the 
ITC. I think she has the intellect and the qualifications and 
the experience to be an excellent Commissioner. She happens to 
be a proud Ohioan.
    In addition to my working with her, we share deep roots in 
the Buckeye State, and I think our country would benefit from 
that perspective.
    She was on the Ways and Means Committee with me, as some of 
you know, a senior professional staffer there. And as a member 
of the Trade Subcommittee, I relied on her judgment and 
expertise. She provided all the good questions for me that I 
asked in that subcommittee. And she was involved in some very 
difficult issues that addressed unfair trade barriers that were 
blocking manufacturing exports and agriculture exports.
    I know, Mr. Chairman, you and others have worked closely 
with her over the years in that regard. And then a couple of 
years later, I had the opportunity to work closely with her 
when she was at the Office of the U.S. Trade Representative.
    She served on my team as the assistant U.S. trade rep for 
industry, market access, and telecommunications, a tough job, 
and, again, she was responsible for developing some very 
important U.S. policy initiatives in the area of industrial 
goods, telecom, e-commerce, as lead negotiator on Doha. So she 
has that experience and has been very involved with looking at 
the plurilateral agreements on services, including with the EU, 
Japan, Korea, Taiwan, high technology and other issues that I 
know that you, Senator Hatch, are very interested in.
    So she has a wealth of experience, and I think she will do 
a terrific job, and I hope that her willingness to serve her 
country in this post will be confirmed by the Senate quickly.
    Thank you very much for allowing me to come and speak on 
Meredith's behalf.
    The Chairman. You bet. Thank you, Senator.
    I think a couple of Senators have a few more questions. I 
want to ask you one, Mr. Rutherford.
    When S&P downgraded the U.S. credit rating, it created 
quite a stir. Some thought that the agency was not objective. I 
think it was, what was it, a $2-trillion error at the time, 
pointed out by Treasury. S&P went back and changed their 
methodology. And the rating agencies have been involved with 
rating the debt of various countries, not just the U.S.
    With our debt ceiling approaching and the fiscal cliff 
approaching, your thoughts, under what circumstances the 
agencies might downgrade U.S. debt.
    Mr. Rutherford. I appreciate the question. I think that I 
share, I think, your frustration to some extent about the 
methodological reasons for why they ended up downgrading the 
United States.
    I think the initial justification that came over, as you 
pointed out, had a $2-trillion error in it. When we found that, 
we pointed out the flaw and they came back to us with a very 
different reason for downgrading the United States. And that 
was really a political judgment about the capacity and 
willingness of policymakers to forge a bipartisan solution to 
our long-term debt problems, and I fundamentally disagree with 
that. I think that this country has made difficult decisions in 
the past, and we will make difficult decisions in the future.
    So I think that they are independent companies that make 
unsolicited ratings on the United States. We do not pay for 
this rating. We do not provide them with any nonpublic 
information.
    So I think they will probably be watching some of the 
issues we have been talking about today toward the end of the 
year and how some of those issues are resolved, but ultimately 
that is going to be a decision that they are going to make, and 
it is difficult for me to forecast exactly what their 
intentions will be.
    The Chairman. How much are the markets influenced by their 
ratings?
    Mr. Rutherford. Well, as you know, the treasury market 
actually rallied. We had a significant decline in rates after 
the downgrade, and I think that really reflects investors' 
confidence in the U.S. Government's ability to meet its 
obligations.
    So I think that that was sort of a counterintuitive 
response to many people, but I do think that investors continue 
to have full confidence in our ability to meet our long-term 
debt issues.
    The Chairman. It is almost impossible to find, but where is 
the tipping point?
    Mr. Rutherford. I think that----
    The Chairman. We are so lucky that investors worldwide have 
confidence in the U.S. treasuries. The rates are so low.
    Mr. Rutherford. Right. So that is going to be something 
that----
    The Chairman. My expectation is that things are not always 
permanent. Sometimes things change. Rates might go up.
    Mr. Rutherford. Right.
    The Chairman. So, to go back to my question, what are some 
of the things that may create a kind of a tipping point?
    Mr. Rutherford. Well, I think we just ultimately need to 
maintain the confidence in the markets, and we clearly have 
that today. I think that what is priced into the treasury 
market today is that we are going to put together a long-term 
solution to our debt issues, and I think we need to deliver on 
that.
    Forecasting the tipping point is very difficult, as you 
said, and I think that the important thing that we need to do 
is just continue to work together and make sure that we come up 
with a long-term plan to maintain that confidence.
    The Chairman. What is the effect of Europe or, precisely, 
French elections and, even more precisely, Greece?
    Mr. Rutherford. Well, I think the markets have been very 
focused on some of the political issues that have occurred in 
Europe recently. I think taking a step back, though, the 
European policymakers need to be given some credit for what 
they have achieved so far. This is a very difficult situation, 
and I think, as the Secretary of the Treasury has pointed out 
on a number of occasions, Europe has really taken off the table 
the risk of a cataclysmic outcome.
    And I think that the banking system, through the ECB's 
actions, has more liquidity, and sovereign debt spreads have 
come down quite a bit.
    So it is going to remain a focus of investors, that is for 
sure, and they have a difficult path ahead, but I do think they 
have the resources to get to the right place.
    The Chairman. What happens if Greece goes off the euro?
    Mr. Rutherford. That is a decision that the Greek voters 
will have to----
    The Chairman. What effect will it have in the U.S.?
    Mr. Rutherford. I am sorry?
    The Chairman. What effect will it have on the United States 
economy?
    Mr. Rutherford. Well, it will depend. I think that one of 
the things that we have seen is that the United States 
continues to be a safe haven, and we continue to see flows into 
our markets when there are stresses overseas.
    So, again, that is maintaining that investor confidence, 
because we have some of the deepest and most liquid capital 
markets in the world. And so I would expect something like that 
to continue to occur.
    The Chairman. Thank you.
    Senator Hatch?
    Senator Hatch. Thank you, Mr. Chairman.
    Mr. Mazur, if we are to discuss the issues of fairness, 
using facts as you propose, what would be your preferred metric 
to measure fairness and equality? And given that metric, what 
would you propose as the objective?
    For example, given your favorite measure, can you give me a 
particular year in the past where you feel the economy was 
closest to what you feel is optimal equality?
    Mr. Mazur. Thank you, Senator Hatch, for raising an 
important issue. As an economist looking at the tax system, 
fairness is just one of the issues that you care about. You 
care about efficiency, and you care about equity.
    And in designing a tax system, there are tradeoffs that 
occur all the time. One of the things that has been a 
characteristic of the U.S. tax system since the early days is a 
notion that the amount of tax individuals pay or taxpayers pay 
is based on some sense of their ability to pay.
    That is reflected in the notion of progressivity, that 
effective tax rates should be higher for those with greater 
incomes. And so that would be one of the characteristics of a 
fair tax system; that is, as you move along the income scale 
going toward higher and higher incomes, on average, effective 
rates would rise.
    I do not think you can point to a particular time in 
history and say, that was the optimal tax system, that was the 
optimal situation we have had.
    We have had our Federal Government grow and shrink over 
time. Really what you want to do with a tax system is raise 
adequate amount of revenue to pay for the goods and services 
demanded by taxpayers from the Federal Government, do it in a 
way that is efficient, and do it in a way that is perceived as 
fair.
    Senator Hatch. As my friends on the other side of the aisle 
are repeatedly discovering, there just is not enough revenue 
available from taxing the so-called rich to pay for the size of 
government that the President desires.
    What maximum upper-income tax rate would you propose to 
confront inequality, and how much revenue do you think that 
would generate? Just give us some ballpark figure, if you can.
    Mr. Mazur. Again, I think the idea of looking for a maximum 
tax rate is one that misses the entire point. Really what we 
are looking at is designing an overall tax system--part of 
which is individual income tax, part of which is corporate 
income tax, part of which is payroll tax, part of which is 
excise taxes, part of which is estate and gift taxes--and 
having that entire tax system raise an adequate amount of 
revenue for the Federal Government--for the goods and services 
that taxpayers demand from the Federal Government.
    So I do not think you can just say, here is a maximum tax 
rate, and hold to that as a simple matter. One of the goals of 
comprehensive tax reform is to say, let us broaden the tax base 
and lower rates.
    If we are successful at doing that, we would lower rates 
below where their current levels would be. But at this point, I 
cannot give you an overall estimate and say a 20-percent rate 
is the maximum rate or a 50-percent or 70-percent rate is the 
maximum rate.
    If we look over the course of history in the United States, 
we have had maximum individual tax rates that ranged from 
probably 90 percent, at the most, to probably 28 percent after 
the 1986 Tax Reform Act. The economy has performed well in a 
wide variety of those situations. So I do not think you can 
say, here is a maximum rate, and kind of use that as a single 
guidepost. It is really more of a balance.
    Senator Hatch. In your testimony, you note that, 
``Complexity breeds the perception that the tax system has two 
sets of rules--one for ordinary Americans and one for those who 
have access to lobbyists and tax engineers.''
    Now, in January of this year, Politico noted that 36 White 
House staffers owed $833,970 in back taxes. Now, do you think 
there also might be a perception that there are different rules 
for those in power or who are close to power? And how important 
is it to ensure the laws are perceived as applying to everyone 
equally, and how can we accomplish this in tax reform?
    Mr. Mazur. Well, clearly, everyone who is in public service 
should pay the taxes that they owe, whether it is in the 
executive branch or another branch of government. Any 
noncompliance is too much noncompliance. So you would really 
want to reduce that.
    Having a reformed system, one where it was simpler for 
taxpayers to navigate the system, one where there is a degree 
of permanence--the taxpayers could rely on the tax rules that 
would apply to them in the future, they would know what those 
were and they would be reliable--that would help improve 
perceptions of fairness.
    Taxpayers would see that they were treated similarly to 
their neighbors who are similarly situated, an important 
characteristic of fairness.
    Senator Hatch. Mr. Chairman, I will submit the rest of my 
questions in writing, and hopefully we can get a quick 
response.
    The Chairman. Thank you.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Just a couple of other areas I want to get into.
    Mr. Rutherford, you and I talked, particularly in the 
office, about tax credit bonds for transportation. And, as you 
know, the central question is that the gas tax simply is not 
something that is palatable to Americans at a time of all this 
economic hardship and skyrocketing gasoline prices. It is not 
palatable in terms of looking there for additional revenue 
given the fact that we have all this work to do in terms of 
infrastructure.
    So what we have done on this committee is to focus 
particularly on trying to generate more revenue in a fashion 
that would be acceptable to the American people and would 
pencil out--in other words, it would add up, from a revenue 
standpoint.
    And we came up with something known as Build America Bonds. 
We talked about it in the stimulus. I remember the afternoon 
Chairman Baucus asked me what I thought was going to happen 
with all of this. I said, Mr. Chairman, we might generate $6 
billion/$8 billion worth of projects, and the chairman and 
colleagues on both sides said, well, it is worth a try.
    As you know, this came in at more than $180 billion worth 
of investments. So, clearly, it was attractive to the private 
sector, which is key, of course, to generating more revenues. 
So, when the administration said, let us make Build America 
Bonds permanent, we thought that was terrific. But, of course, 
that cannot pass, particularly in the House.
    So we have gone back to the drawing board, and Senator 
Hoeven and I, in particular, have come up with a new concept, 
which really focuses on sort of a State version of these tax 
credit bonds.
    Once again, the private sector has been very supportive, 
very interested. We have talked to Chairman Baucus and Senator 
Hatch and have had a lot of discussion here on a bipartisan 
basis, and we need new revenue that can be generated in a 
fashion that would be acceptable to the public.
    What are your thoughts on that kind of approach?
    Mr. Rutherford. I appreciate the question, Senator. I think 
that improving infrastructure in this country is something that 
the administration has been very focused on, as you know. And I 
think in the recent budget, the support dedicated to an 
infrastructure bank was important in this respect, as well as 
the administration's belief that we should continue to extend 
those Build America Bonds, which I know you were so important 
in engineering.
    And I think that, as you pointed out, they were incredibly 
successful. And, from a market perspective, I think the 
investors that I speak with, they were very receptive to this 
market, and a market was basically generated overnight, a very 
deep and liquid market.
    So I think that this is the area that the administration 
has focused on, because it was our belief that this was an area 
that was incredibly successful.
    But upon reflecting upon our conversation, I do think that 
the spirit of what you are trying to achieve with these TRIP 
bonds is something that is definitely worthy of consideration, 
and, if confirmed, I would be happy to continue to work with 
you on this topic, because I share your desire to improve 
infrastructure in this country.
    Senator Wyden. Well, thank you. And I think that is very 
constructive. You may know, with Chairman Baucus's support and 
Senator Hatch's, we were able to get a placeholder for these 
TRIPs in the transportation bill. Senator Hoeven and I are 
continuing to work with colleagues on both sides of the aisle 
in the House and Senate in a bipartisan way in hopes that this 
can be part of the effort, again, to shore up the opportunity 
to finance the desperately needed infrastructure.
    We all know you cannot have big league economic growth with 
little league transportation systems. So your positive reaction 
and being willing to look at other approaches, I think, is very 
helpful, very constructive. I appreciate it.
    And having been the author of the Build America Bonds the 
first time, with lots of other colleagues, I wish we could go 
there. It is just that we are going to have to look at some 
other approaches.
    The last point that I would make is this. Ms. Broadbent, we 
did not have a chance to talk in the office. So I am not going 
to throw lots of difficult questions at you. I just simply want 
to convey that, particularly with the significant 
transformation in our economy, and particularly the digital 
economy--digital goods, digital services--we have been spending 
a lot of time looking at those issues here, and there are a 
whole host of questions that apply to the international arena: 
unfair digital imports, for example, those that infringe on 
copyrights.
    And for all practical purposes, these are unfair trade 
practices, and there has been lots of bipartisan interest in 
looking at that in terms of a trade issue and responding in the 
trade arena so that we can do two things: we can protect 
American jobs and protect our key industries, whether they are 
fake Nikes or movies people do not own or somebody selling 
tainted Viagra.
    It is not right to let people be ripped off. We have to do 
it in a way that does not harm the Internet and does not harm 
the prospects for more digital goods and services.
    I am going to be supporting you when you come up for a vote 
here, and I would like to have a chance to talk with you about 
that down the road. And I guess you are spared any questions, 
because we did not have a chance to talk about it. But I just 
wanted to put that on your radar.
    And, Mr. Chairman, I think it has been a valuable hearing. 
We have gotten a lot of important issues aired, and I thank you 
for this extra time.
    The Chairman. Thank you, Senator. Thank you all. I wish you 
all very, very good luck. You will be working extraordinarily 
hard and will not be spending as much time as you would like 
with your families. Thank your families, too, for the joint 
effort here.
    We have a lot of work to do, and I urge you, too, to not 
blindside this committee. That is, when something is coming up 
that is relevant to this committee, give us advance notice. 
Give us a telephone call, because the goal is to work together. 
The goal is not, from our side, to be adversarial, 
antagonistic, competitive. The goal is to be cooperative and 
constructive, and I know you will do the same. I just urge you 
to approach your work generally in that regard, but more 
specifically with respect to this committee.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was concluded.]


                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T0697.002

[GRAPHIC] [TIFF OMITTED] T0697.003

[GRAPHIC] [TIFF OMITTED] T0697.004

[GRAPHIC] [TIFF OMITTED] T0697.005

[GRAPHIC] [TIFF OMITTED] T0697.006

[GRAPHIC] [TIFF OMITTED] T0697.007

[GRAPHIC] [TIFF OMITTED] T0697.008

[GRAPHIC] [TIFF OMITTED] T0697.009

[GRAPHIC] [TIFF OMITTED] T0697.010

[GRAPHIC] [TIFF OMITTED] T0697.011

[GRAPHIC] [TIFF OMITTED] T0697.012

[GRAPHIC] [TIFF OMITTED] T0697.013

[GRAPHIC] [TIFF OMITTED] T0697.014

[GRAPHIC] [TIFF OMITTED] T0697.015

[GRAPHIC] [TIFF OMITTED] T0697.016

[GRAPHIC] [TIFF OMITTED] T0697.017

[GRAPHIC] [TIFF OMITTED] T0697.018

[GRAPHIC] [TIFF OMITTED] T0697.019

[GRAPHIC] [TIFF OMITTED] T0697.020

[GRAPHIC] [TIFF OMITTED] T0697.021

[GRAPHIC] [TIFF OMITTED] T0697.022

[GRAPHIC] [TIFF OMITTED] T0697.023

[GRAPHIC] [TIFF OMITTED] T0697.024

[GRAPHIC] [TIFF OMITTED] T0697.025

[GRAPHIC] [TIFF OMITTED] T0697.026

[GRAPHIC] [TIFF OMITTED] T0697.027

[GRAPHIC] [TIFF OMITTED] T0697.028

[GRAPHIC] [TIFF OMITTED] T0697.029

[GRAPHIC] [TIFF OMITTED] T0697.030

[GRAPHIC] [TIFF OMITTED] T0697.031

[GRAPHIC] [TIFF OMITTED] T0697.032

[GRAPHIC] [TIFF OMITTED] T0697.033

[GRAPHIC] [TIFF OMITTED] T0697.034

[GRAPHIC] [TIFF OMITTED] T0697.035

[GRAPHIC] [TIFF OMITTED] T0697.036

[GRAPHIC] [TIFF OMITTED] T0697.037

[GRAPHIC] [TIFF OMITTED] T0697.038

[GRAPHIC] [TIFF OMITTED] T0697.039

[GRAPHIC] [TIFF OMITTED] T0697.040

[GRAPHIC] [TIFF OMITTED] T0697.041

[GRAPHIC] [TIFF OMITTED] T0697.042

[GRAPHIC] [TIFF OMITTED] T0697.043

[GRAPHIC] [TIFF OMITTED] T0697.044

[GRAPHIC] [TIFF OMITTED] T0697.045

[GRAPHIC] [TIFF OMITTED] T0697.046

[GRAPHIC] [TIFF OMITTED] T0697.047

[GRAPHIC] [TIFF OMITTED] T0697.048

[GRAPHIC] [TIFF OMITTED] T0697.049

[GRAPHIC] [TIFF OMITTED] T0697.050

[GRAPHIC] [TIFF OMITTED] T0697.051

[GRAPHIC] [TIFF OMITTED] T0697.052

[GRAPHIC] [TIFF OMITTED] T0697.053

[GRAPHIC] [TIFF OMITTED] T0697.054

[GRAPHIC] [TIFF OMITTED] T0697.055

[GRAPHIC] [TIFF OMITTED] T0697.056

[GRAPHIC] [TIFF OMITTED] T0697.057

[GRAPHIC] [TIFF OMITTED] T0697.058

[GRAPHIC] [TIFF OMITTED] T0697.059

[GRAPHIC] [TIFF OMITTED] T0697.060

[GRAPHIC] [TIFF OMITTED] T0697.061

[GRAPHIC] [TIFF OMITTED] T0697.062

[GRAPHIC] [TIFF OMITTED] T0697.063

[GRAPHIC] [TIFF OMITTED] T0697.064

[GRAPHIC] [TIFF OMITTED] T0697.065

[GRAPHIC] [TIFF OMITTED] T0697.066

[GRAPHIC] [TIFF OMITTED] T0697.067

[GRAPHIC] [TIFF OMITTED] T0697.068

[GRAPHIC] [TIFF OMITTED] T0697.069

[GRAPHIC] [TIFF OMITTED] T0697.070

[GRAPHIC] [TIFF OMITTED] T0697.071

[GRAPHIC] [TIFF OMITTED] T0697.072

[GRAPHIC] [TIFF OMITTED] T0697.073

[GRAPHIC] [TIFF OMITTED] T0697.074

[GRAPHIC] [TIFF OMITTED] T0697.075

[GRAPHIC] [TIFF OMITTED] T0697.076

[GRAPHIC] [TIFF OMITTED] T0697.077

[GRAPHIC] [TIFF OMITTED] T0697.078

[GRAPHIC] [TIFF OMITTED] T0697.079

[GRAPHIC] [TIFF OMITTED] T0697.080

[GRAPHIC] [TIFF OMITTED] T0697.081

[GRAPHIC] [TIFF OMITTED] T0697.082

[GRAPHIC] [TIFF OMITTED] T0697.083

[GRAPHIC] [TIFF OMITTED] T0697.084

[GRAPHIC] [TIFF OMITTED] T0697.085

[GRAPHIC] [TIFF OMITTED] T0697.086

[GRAPHIC] [TIFF OMITTED] T0697.087

[GRAPHIC] [TIFF OMITTED] T0697.088

[GRAPHIC] [TIFF OMITTED] T0697.089

[GRAPHIC] [TIFF OMITTED] T0697.090

[GRAPHIC] [TIFF OMITTED] T0697.091

[GRAPHIC] [TIFF OMITTED] T0697.092

[GRAPHIC] [TIFF OMITTED] T0697.093

[GRAPHIC] [TIFF OMITTED] T0697.094

[GRAPHIC] [TIFF OMITTED] T0697.095

[GRAPHIC] [TIFF OMITTED] T0697.096

[GRAPHIC] [TIFF OMITTED] T0697.097

[GRAPHIC] [TIFF OMITTED] T0697.098

[GRAPHIC] [TIFF OMITTED] T0697.099

[GRAPHIC] [TIFF OMITTED] T0697.100

[GRAPHIC] [TIFF OMITTED] T0697.101

[GRAPHIC] [TIFF OMITTED] T0697.102

[GRAPHIC] [TIFF OMITTED] T0697.103

[GRAPHIC] [TIFF OMITTED] T0697.104

[GRAPHIC] [TIFF OMITTED] T0697.105

[GRAPHIC] [TIFF OMITTED] T0697.106

[GRAPHIC] [TIFF OMITTED] T0697.107

[GRAPHIC] [TIFF OMITTED] T0697.108

[GRAPHIC] [TIFF OMITTED] T0697.109

[GRAPHIC] [TIFF OMITTED] T0697.110

[GRAPHIC] [TIFF OMITTED] T0697.111

[GRAPHIC] [TIFF OMITTED] T0697.112

[GRAPHIC] [TIFF OMITTED] T0697.113

[GRAPHIC] [TIFF OMITTED] T0697.114

[GRAPHIC] [TIFF OMITTED] T0697.115

[GRAPHIC] [TIFF OMITTED] T0697.116

[GRAPHIC] [TIFF OMITTED] T0697.117

[GRAPHIC] [TIFF OMITTED] T0697.118

[GRAPHIC] [TIFF OMITTED] T0697.119

[GRAPHIC] [TIFF OMITTED] T0697.120

[GRAPHIC] [TIFF OMITTED] T0697.121

[GRAPHIC] [TIFF OMITTED] T0697.122

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
